<html>
<title> - TAKING CARE OF SMALL BUSINESS: WORKING TOGETHER FOR A BETTER SBA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








    TAKING CARE OF SMALL BUSINESS: WORKING TOGETHER FOR A BETTER SBA

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             APRIL 5, 2017

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   

            Small Business Committee Document Number 115-014
              Available via the GPO Website: www.fdsys.gov
              
              
              
              
              
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-809                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
              
              
              
              
              
              
              
              
              
              
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                          DON BACON, Nebraska
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                                 VACANT
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                                WITNESS

Hon. Linda McMahon, Administrator, United States Small Business 
  Administration, Washington, DC.................................     4

                                APPENDIX

Prepared Statement:
    Hon. Linda McMahon, Administrator, United States Small 
      Business Administration, Washington, DC....................    31
Questions for the Record:
    From Hon. Chabot, Hon. Marshall, and Hon. Bacon..............    34
Answers for the Record:
    From Hon. Linda McMahon......................................    36
Additional Material for the Record:
    Talking Points/Remarks from Congresswoman Yvette D. Clarke...    39

 
    TAKING CARE OF SMALL BUSINESS: WORKING TOGETHER FOR A BETTER SBA

                              ----------                              


                        WEDNESDAY, APRIL 5, 2017

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Radewagen, Kelly, Blum, 
Comer, Gonzalez-Colon, Bacon, Marshall, Velazquez, Evans, 
Murphy, Lawson, Clarke, Chu, Adams, Espaillat, and Schneider.
    Chairman CHABOT. Good morning. The Committee will come to 
order.
    Here at the Small Business Committee, we have members from 
all walks of life, all parts of the country, and certainly, all 
political views. That is why we take every opportunity to 
remind ourselves why we are here serving on this particular 
Committee together. We know that every small business started 
with an idea.
    In the 21st century, there are more ways than ever for the 
federal government to either help those ideas become reality 
and create jobs, or squash them before they ever get off the 
ground. I believe we have a new partner at the Small Business 
Administration who understands this as well as anyone. Linda 
McMahon is a living example of what can happen when risks are 
weighted, chances are taken, and creativity is unleashed. When 
that happens the world is your arena, and I do not use that 
word loosely.
    My long-time friend, our Ranking Member, often says that 
there is no such thing as a Republican small business or a 
Democrat small business; they are just small businesses trying 
to succeed. I agree. And I believe the resounding support 
Administrator McMahon received through her Senate confirmation 
process is a sign that she shares our approach. Not to belabor 
the point, but the Senate really seemed to like her, and they 
do not like anybody.
    This Committee has long believed that the SBA is an agency 
in need of attention. The loan programs that provide crucial 
access to capital need vigilant oversight. The training and 
technical assistance programs that reach people through local 
SBDCs need to keep up with rapidly changing times. Our job is 
to ensure that SBA's programs are effectively and efficiently 
serving the millions of Americans who work at, own, or want to 
start a small business. We ended the last Congress with a lot 
of unanswered questions from the SBA about how the agency will 
address longstanding deficiencies in management, information 
technology, and program oversight.
    It is our intention that today will mark the official start 
of a collaborative relationship that will address these issues 
and any more that arise in the future. Administrator McMahon 
has a record of spotting opportunity where few others could. I 
think it is also safe to say that she does not put up with much 
nonsense, not that this Committee would ever give her any but 
we are looking forward to hearing directly from her today about 
her plans for making the SBA a better agency.
    Madam Administrator, welcome to the first of what I am sure 
will be many productive conversations with this Committee. And 
I would now yield to our ranking member, Ms. Velazquez, for her 
opening statement.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. And welcome, Madam 
Administrator. And thank you for being here today.
    While there are many political and ideological differences 
represented on this committee, one thing we all agree on is the 
centrality of small businesses to our nation's economy. 
America's small employers merit our attention because in a time 
of partisanship they remain our common ground. They are the 
voices this committee strives to make heard. Small businesses 
need the focus of both the federal government and the private 
sector. Today we will center our discussion on government 
efforts to assist small business owners, principally those of 
the Small Business Administration.
    The SBA plays a vital role because it is the only agency in 
the federal government tasked specifically with helping small 
businesses grow and succeed. For small businesses to fully reap 
the benefit from SBA's programs, it is important that the 
agency operates efficiently and effectively, utilizing 
taxpayers' dollars wisely. As such, one role of this committee 
is conducting vigorous oversight so we know the agency is 
serving small businesses well. In that regard, it is the duty 
of our committee to raise our concerns with any proposal 
eliminating or consolidating valuable SBA programs.
    While cutting redundant programs is a worthwhile goal, SBA 
programs serve an important purpose in reaching business owners 
who often cannot access assistance elsewhere. In many cases, 
businesses struggle to secure financing, and SBA initiatives 
help fill these gaps. Last fiscal year, the agency supported 
over $24 billion in lending through its 7(a) program alone. 
Another $4 billion in lending was made available for capital-
intensive projects through the agency's 504 initiative.
    The SBA also plays a vital role in helping small businesses 
and disadvantaged firms secure their fair share of federal 
contracts. When small firms win government contracts, our 
entire nation benefits. Taxpayers receive quality goods and 
services at fair prices.
    At the same time, unlike their larger competitors, when 
small businesses secure federal work, they often must scale up 
quickly and that creates jobs.
    We have seen some progress in federal agencies meeting 
their small business contracting goals, but more work remains. 
I will be interested to hear the administrator's view on how to 
help more small firms break into the federal marketplace. 
Beyond lending and contracting, entrepreneurs need the 
technical know-how and guidance to help them with everything 
from writing a business plan to learning to export.
    The agency's Small Business Development Centers, Women's 
Business Centers, and Veterans Business Outreach Centers are 
spread throughout the country and help meet those needs, but 
improvements can always be made. SBA must do more to support 
minority- and women-owned businesses as they account for much 
of the nation's small business growth. Women and minority 
business owners face high interest rates, a lack of capital, 
unmet contract goaling, and a lack of mentorship. These 
business owners are invaluable to our economy and continued 
disparities need to be addressed.
    Nevertheless, the SBA remains an important institution for 
America's small businesses. It is paramount that the agency's 
scarce resources be invested wisely and that the agency has the 
funds and people in it to carry out its mission. In that 
regard, I found disconcerting this administration's proposal to 
reduce SBA's budget by 5 percent. Likewise, I have concerns 
about how the current hiring freeze and plans to reduce SBA's 
workforce might restrict agency functions.
    All of us in Congress and the administration agree that 
small businesses are a cornerstone of our economy and deserve 
our support. However, that requires more than lip service. It 
involves a real commitment to invest in programs that work.
    On that note, I look forward to hearing the administrator's 
view regarding the agency's priorities for the long term. With 
that, I thank the chairman for holding this hearing and, again, 
I welcome the administrator. I yield back.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    If Committee members have an opening statement prepared we 
would ask that they submit them for the record.
    And I would like to take just a moment to go over the time 
restraints and the lighting system which we have already 
discussed, but we basically operate under the 5-minute rule. 
And you get 5 minutes and we do, too. And there is a lighting 
system to assist you in that. The green light will be on for 4 
minutes and the yellow light will come on and it gives you a 
minute to wrap up, and then the red light will come on. If you 
need a little more time since we just have one witness, we 
usually have four, you do not get four times 5 minutes, 20, but 
a little bit over would be fine.
    So, and I would now like to officially introduce our 
distinguished witness here this morning. It is my pleasure to 
introduce The Honorable Linda McMahon, the 25th administrator 
of the Small Business Administration. She is one of the 
Nation's top female executives, has run for public office, and 
has been recognized for her many philanthropic activities. 
Administrator McMahon is the cofounder and former chief 
executive officer of WWE, which grew from a small, regional 
operation, to a publicly-traded global company with 800 
employees worldwide; many of those employees, very big 
employees.
    Most recently, she served as the cofounder and former chief 
executive officer of Women's Leadership LIVE, LLC, a company 
that helps women to launch and expand their own businesses, 
advance their careers towards executive roles, and pursue 
opportunities for leadership in public service. Before assuming 
the top post at SBA 6 weeks ago, she served on the boards of 
Sacred Heart University in Fairfield, Connecticut; the Close Up 
Foundation in Washington, D.C., which educates young people to 
participate in our democracy; and American Corporate Partners 
in New York City, which pairs returning veterans with mentors 
in the workforce.
    Administrator McMahon has received numerous honors, 
including, among other things, the Humanitarian Award from 
Catholic Big Sisters and Big Brothers in New York City and the 
Spirit of Hope Award from Liberation programs in Norwalk, 
Connecticut. She is a graduate of East Carolina University.
    Administrator McMahon, we want to thank you again for 
appearing this morning, and you are recognized for 5 minutes.

STATEMENT OF THE HONORABLE LINDA MCMAHON, ADMINISTRATOR, UNITED 
              STATES SMALL BUSINESS ADMINISTRATION

    Ms. MCMAHON. Thank you very much, Chairman Chabot, Ranking 
Member Velazquez, and members of the Committee, for inviting me 
to speak with you today. I am so honored to be serving as 
administrator of the U.S. Small Business Administration. I 
would also like to express my gratitude to President Trump for 
the opportunity to join his administration and for his support 
of small businesses.
    I want to right off the bat address recent reports that 
came out last Friday relative to an article in a magazine that 
indicated that SBA's flagship program, the 7(a) Business Loan 
Guaranty program, may be at risk of exceeding its program 
authority this year. I am here today to assure you that while 
the agency is seeing increased demand by the small business 
community, we are not currently in jeopardy of exceeding our 
capacity to meet such needs. We have contacted and continue to 
work with the SBA lending community to inform them that the 
agency is in good financial position with sufficient resources 
through the end of this fiscal year.
    To ensure that America's small businesses can fully benefit 
from the tools and resources provided by SBA and that this 
support continues through the year uninterrupted, I do support 
legislative changes that provide the administrator 
circumstantial flexibility to increase its program authority 
level. Such flexibility, such as through prior proposals to 
increase the program authority by 15 percent following proper 
congressional notification, could better equip SBA to meet 
peaks in demand while continuing to operate at zero subsidy.
    Today marks 50 days since I was sworn in as administrator 
of SBA, and I have been drinking from a firehose a little bit. 
I am continually impressed by the tremendous work being done by 
SBA's team in support of our Nation's 28 million small 
businesses. My goal as administrator is to revitalize the 
agency and raise its profile and, in turn, revitalize the 
spirit of entrepreneurship in America.
    My hope is as more people learn about the services SBA 
provides, they will have the confidence, skills, and resources 
they need to start or grow their own businesses, to invest in 
their communities, to create jobs, and to grow our economy. I 
feel a tremendous commitment to each of SBA's stakeholders: our 
small business owners; our team at SBA; President Trump, who 
entrusted me with this position; and the taxpayers who expect 
us to use their dollars effectively and efficiently.
    When I first met with President-elect Trump back in 
November about taking the top job at SBA, he communicated one 
clear, specific request to me. As I was leaving his office, he 
looked at me and he said, ``I have one request, and that is 
that you do a good job.'' He said it with such sincerity, I 
knew he meant it and was expecting me to deliver. I responded 
that I would, adding that, ``If at any time my job is not good 
enough, I trust you will tell me and I will step aside for 
someone who would do it better.'' And his response to me was, 
``Well, I could not ask for more than that.''
    And during my first town hall meeting with SBA's employees 
last month, I asked every one of them to join me in that 
commitment: do a good job and expect to be held accountable. I 
have spent a lot of time getting to know our team and letting 
our team get to know me. I want them to feel engaged and 
empowered and know their expertise is valued. Since our town 
hall meeting, the conversation has continued, whether in formal 
settings or chats on the elevator or on social media. In fact, 
our social media team tells me the agency's official Twitter 
feed has added more than 100,000 followers since I came 
onboard. Last week's Twitter chat called ``Business Success Her 
Way,'' promoting women entrepreneurship, was a trending topic 
nationwide. I am thrilled there is a buzz around SBA as it 
draws attention to the services the agency offers, services 
that will ultimately help people start, scale, and succeed in 
business.
    Our small businesses are our Nation's innovators and job 
creators, and I am committed to serving as their advocate. Last 
week, I had the privilege of joining Vice President Pence 
visiting small business owners in West Virginia. Our host, Ron 
Foster, grew his construction supply company with the help of a 
504 loan from SBA. I relate to entrepreneurs like Ron because I 
am an entrepreneur myself. I have shared the experiences of our 
country's small business owners. My husband and I built our 
business from scratch. We started out sharing a desk. Over 
decades of hard work and strategic growth, we built it into a 
publicly-traded, global enterprise with more than 800 
employees. This past weekend, the business we created had a 
global audience of millions as it broadcast the 33rd edition of 
WrestleMania.
    I am proud of our success. I know every bit of hard work 
and sweat equity it took to create that success. I remember the 
early days when every month I had to decide whether I should 
continue to lease a typewriter or whether I could finally 
afford to buy it. Yes, and believe it or not, that $12 a month 
made a difference in the budget.
    Like all small business owners, I know what it is like to 
take a risk on an idea, manage cash flow, navigate regulations 
and tax laws, and create jobs. Since stepping down as CEO of 
WWE in 2009, I have worked to help more people have the 
opportunity to pursue those goals. As a candidate for the U.S. 
Senate in 2010 and 2012, I met with more than 500 small 
business owners, touring their shops, restaurants, offices and 
factories, and sharing ideas during roundtable discussions. Job 
growth was a pillar of my campaign, and because small 
businesses are responsible for half of all private sector jobs 
and the majority of new jobs, they were my focus.
    And for the past 2 years, I promoted women and 
entrepreneurship as cofounder and CEO of a startup called 
Women's Leadership LIVE. I wanted to share my vast experience 
with others who are launching startups or looking to scale 
their businesses. Through live events and webinars, we educated 
entrepreneurs about things like applying for a loan and 
developing a business plan. We also worked to build their 
confidence. I always say that even entrepreneurs with the best 
ideas just sometimes need a little wind beneath their wings. We 
shared our stories of successes and failures, our networks of 
contacts and resources, and our strategies for addressing 
challenges. And now through SBA, I am committed to offering 
small business owners the capital, the counseling, and the 
confidence that will help propel them forward.
    Small businesses have taken some tough blows in the past. I 
know what it is like to take a hit, and I have learned it is 
not how you fall, but how you get up that truly matters. Early 
in my career when we were very young, my husband and I declared 
bankruptcy. We invested in a company we did not understand and 
trusted people we should not have. When that company went 
under, we were left holding the bag. We worked really hard to 
pay off those debts until we realized we just could not do it. 
Bankruptcy was a really hard decision and a very tough time in 
our lives. We lost our home. My car was repossessed in the 
driveway. At that time we had a young son and a baby on the 
way. We had no choice but to work hard and start building again 
so we could support our family. When our daughter Stephanie was 
born, a perfect little baby so full of promise and potential, I 
took it as an omen that things were going to be okay. We owed 
it to her and to our son that we would make it okay. And 
fortunately, we were able to and we did.
    As I visited small businesses all over the country, I have 
seen that same resiliency over and over again. Entrepreneurs 
are fighters. They work hard. When they get knocked down by 
recession or a natural disaster, or simply a change in consumer 
demand, they turn to their creativity to make it better. But 
sometimes they need a helping hand. Now that I am the SBA 
administrator, I am committed to ensuring that our agency is as 
strong as it can be to lift up as many entrepreneurs as it can. 
My commitment extends to making sure that all services we offer 
to our customers are delivered effectively and efficiently and, 
most importantly, that SBA and our partners are offering what 
small businesses actually need to grow to innovate and to 
create jobs. With small businesses as the driver of our 
economy, I believe our country will remain strong, too.
    Thank you so much for the opportunity to speak with you 
today, and I look forward to answering your questions.
    Chairman CHABOT. Thank you very much. And I will recognize 
myself for 5 minutes to begin the questioning.
    I was struck by your comment about not knowing whether you 
should lease or buy the typewriter because I had a similar 
experience when I, out of law school, opened up my law office 
and I was a sole practitioner. And I used to go a mile down the 
street to make copies at the end of every day at the Quick 
Print because it was too expensive to lease or buy a copy 
machine myself. And I did not buy one until 3 or 4 years after 
having that. So it saved a lot of time not having to drive down 
there, but I certainly can identify with that story.
    And I also want to thank you for addressing the 7(a) loan 
program issue at the beginning of your testimony because I had 
also seen that same article and was concerned about that as 
well because we had an experience here a couple years ago and 
so we need to, in advance, plan for this. And I am very glad to 
hear--was that just last year then? Yeah, recently. As recently 
as last year. And so please, if you would not mind closely 
monitoring that. We are glad you are, and if you could keep in 
touch with our staff and will let both sides of the aisle know 
how that is progressing down the road.
    The Government Accountability Office reports, the GAO, they 
found many longstanding SBA management challenges, all of 
which, of course, were prior to your time at the administration 
since you have only been there 6 weeks now. What sort of plans 
do you have for completing the implementation of the GAO's 
recommendations on the Small Business Administration, your 
agency's management?
    Ms. MCMAHON. Thank you very much for that question. You 
know, coming on as the administrator of SBA is a lot like 
assuming the position of CEO of a company. In fact, that is 
clearly what it is. So when you first come on board you are 
trying to evaluate employees, practices, what is good business, 
what is not good business. And in this instance, you had a 
little help in identifying some of those issues by the GAO. So 
I can tell you that we have been incredibly responsive, it is 
my understanding, to a lot of those issues and have already 
closed some of those issues.
    When I came, my first address in our town hall meeting was 
to let our folks know that, look, I want this to be the best 
SBA that has ever been, and I think it is a little stodgy. I 
want us to update it. I want us to look at every instance we 
can and make it better. So I appreciate the GAO and the 
Oversight Committee's recommendations, and we will continue to 
make sure that we are making those kinds of improvements.
    Chairman CHABOT. Excellent. Thank you very much.
    My next question, the SBA has been plagued with IT issues, 
and, in fact, the GAO and the SBA's Office of Inspector General 
have both reported that IT is a top management challenge for 
the SBA. The GAO has even gone so far as to find that the SBA 
is at serious risk of a cybersecurity attack, putting small 
businesses and their personal data in jeopardy. What steps are 
you planning to take to address the SBA's IT challenges, and 
will these steps help the SBA to prevent cybersecurity attacks?
    Ms. MCMAHON. It is certainly my goal to take the steps that 
would help prevent those attacks. Just before I arrived in 
October, the acting administrator hired a new CIO. And Marie 
Roat's background is very thorough. She comes from the public 
and the private sector. In fact, she has actually, just this 
past Friday, received an award for her government service and 
expertise. She kind of inherited a mess, and I think what she 
has done so far is to put in policies and procedures that are 
absolutely making things better.
    We have a long ways to go. In fact, last Thursday evening 
we had what was called a spoof email come through. It did not 
affect our network. Our network was not hacked, but these are 
attempts to get inside. What we found was a configuration error 
in transferring from one email management system over to 
Microsoft, so that was fixed immediately. But you do not know 
that those things exist until it is tested. So what I asked 
Maria and our deputy last week were what kind of beta tests are 
we doing to make sure that we can identify in advance any of 
these weaknesses? So they are in the process of doing that.
    We are also in the process of upgrading our equipment 
because what we found was we had a lot of equipment that no 
longer had support, for instance, of Microsoft. So 
identification of equipment throughout the enterprise, policies 
and procedures, they are working very hard to get those in 
place and I think we have some good people. The deputy came on 
in January, so you know, the proof is in the pudding, but I 
have seen positive results so far.
    Chairman CHABOT. Thank you very much. My time is expired.
    The Ranking Member is recognized for 5 minutes.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Administrator, you mentioned in your opening statement the 
7(a) cap issue and how you have moved to alleviate fears of a 
shutdown. What exactly do you mean by it?
    Ms. MCMAHON. Well, first of all, we contacted our lenders 
to make sure that they understood that this article was not 
totally correct. One of the things the article stated was it 
talked about the increase on a percentage basis of where we 
were for loans this year relative to last year, and we had run 
out of funds and had to come back and ask for more funds. That 
is not the case. What the writer of the article did not look at 
the program in totality.
    So another thing that we did, I had our communications 
department call the writer of the article and say we want to 
work with you. If you have issues, please at least call us so 
you can get the full information so that your story is correct 
for both you and for us because you could create a panic in the 
lending environment that would send people, you know, it could 
be a run on the banks to get things done. So it was very 
inappropriate, and I thought not as professional as it might 
have been, so we offered to work with them. In addition, we 
notified all of our employees that this was not an issue.
    Ms. VELAZQUEZ. Okay. But the risk is real and we have dealt 
with this issue before. So my question to you is to what extent 
should SBA be given flexibility to increase 7(a) lending 
authority beyond the congressional authorized cap?
    Ms. MCMAHON. Well, thank you. And one of the things that I 
have asked for is an ability to increase the cap by 15 percent 
should we have surges that would be unanticipated and not 
through anything that we have done. However, we do have, I 
think, a really good lender oversight program now and are 
really managing that risk. We watch it on a daily basis, so we 
are totally on top of it.
    Ms. VELAZQUEZ. Are you telling me that you are open to be 
supportive of flexibility in increasing the 7(a) program 
subsidy?
    Ms. MCMAHON. Absolutely.
    Ms. VELAZQUEZ. Okay, thank you.
    Last week, I hosted a women's roundtable exploring women's 
small business issues, and a common concern among participants 
was the access women have to capital in order to start and grow 
their businesses. The SBIC program that we have with SBA is a 
stable and successful program, but it needs more women 
investors. I think there is a real opportunity for Congress, 
the Small Business Administration, and the industry to work 
together to support getting more women into investing and for 
more women-run businesses to receive investment. Will you work 
with this committee and the industry to get more women licensed 
as SBIC fund managers?
    Ms. MCMAHON. I certainly will because I think it is just 
that important as well.
    Ms. VELAZQUEZ. Thank you.
    In 2014, the GAO reported that many ineligible firms were 
allowed to enter into the Women's Procurement program because 
of their ability to self-certify. In order to prevent fraud in 
the program, the 2015 National Defense Authorization Act 
required SBA to implement its own certification program. I 
would like to know, when SBA expects to have its certification 
process up and running?
    Ms. MCMAHON. Very soon. As a matter of fact, it is a focus 
right now that is going on in SBA. I do not have an exact 
timeframe for you, but we are looking at having that program up 
and running very soon.
    Ms. VELAZQUEZ. And at that time, when can we expect the 
repository currently used by self-certifying businesses to be 
eliminated?
    Ms. MCMAHON. Let me take a look at that and get back to 
you.
    Ms. VELAZQUEZ. Okay. In the 114th Congress, bipartisan 
legislation was introduced that included redefining credit 
elsewhere to focus on the borrower's ability to obtain credit 
instead of a lender's ability to provide it. We continue to 
hear concerns over how the credit elsewhere test is applied. To 
what extent do you believe Congress should enact legislation 
that provides clarity to the definition of credit elsewhere?
    Ms. MCMAHON. I think that it is incumbent upon the agency. 
Maybe not necessarily government.
    Ms. VELAZQUEZ. Okay.
    Ms. MCMAHON. To continue to look at making sure that our 
lenders are the ones that we need for our programs when our 
borrowers cannot get money elsewhere.
    Chairman CHABOT. The gentlelady's time is expired. Does the 
gentlelady need additional time?
    Ms. VELAZQUEZ. No. I will go in the second round. Thank 
you.
    Chairman CHABOT. Okay. Okay. Okay. Thank you.
    Ms. VELAZQUEZ. I yield back.
    Chairman CHABOT. The gentlelady yields back.
    The gentlelady from American Samoa, Mrs. Radewagen, who is 
the chairman of the Subcommittee on Health and Technology, is 
recognized for 5 minutes.
    Mrs. RADEWAGEN. Thank you, Mr. Chairman and Ranking Member. 
Talofa. I want to welcome you, Administrator McMahon, for 
testifying today.
    Just a few weeks ago, my colleagues in this Committee were 
all joking about March Madness and their districts' various 
college basketball teams. Unfortunately, American Samoa does 
not have a college basketball team, but I can boast about 
something the other members of this Committee cannot, and that 
is professional wrestling. American Samoa has given the 
wrestling world Pita Maivia, Roman Reigns, the Usos, Samoa Joe, 
and of course, my friend and cousin, The Rock. The WWE has done 
a great job of raising awareness of American Samoa.
    Administrator McMahon, during the last administration, the 
CIO post remained vacant for long periods of time, which likely 
contributed to many IT challenges, and I am glad to learn that 
you now have one. I also represent American Samoa, and one of 
the main issues that our small businesses face is a lack of 
capital. Under your direction, how will SBA address access to 
capital?
    Ms. MCMAHON. In general terms you mean?
    Mrs. RADEWAGEN. Yes.
    Ms. MCMAHON. We are already addressing that access to 
capital. I think we are looking always for more qualified 
lenders, but we want to make sure that they are the right 
lenders. We have lender training programs. Our field offices 
are constantly in touch with our lending partners. And as we 
can see, there is more demand for capital. So I think we have a 
good program in place but it is one that we will continue to 
monitor to make sure that we are making as much capital 
available, you know, to our women programs.
    Mrs. RADEWAGEN. And thirdly, my last major concern is the 
Disaster Loan program. American Samoa has suffered from 
hurricanes and tsunamis and cyclones which have nearly 
destroyed our economy. Will SBA be ready to help assist small 
businesses and homeowners when the next disaster strikes?
    Ms. MCMAHON. I think we learned a lot from Katrina and 
Sandy, and it is my understanding that we were not prepared to 
handle the magnitude of those storms. In fact, when I first 
learned that disaster relief came under SBA, I was actually 
quite surprised. And in my Senate hearing I testified that it 
would be one of the areas that I would take the first look at 
because you never know when that next disaster or catastrophe 
is going to strike. And we have to be ready because when our 
businesses, when our entrepreneurs or operators have lost their 
businesses, that not only impacts them, it impacts the local 
economy, it impacts our national economy. So we want to make 
sure that we can get them back on their feet, not only from 
their business perspective but also from their home 
perspective.
    So the leader of our Disaster Relief program, James Rivera, 
I think has done an excellent job in responding to the 
magnitude now of Disaster Relief. In fact, let us see, in May, 
I will tour our facility in Dallas-Fort Worth, from which 
everything fans out from when we get a disaster program. It is 
sort of the headquarters of Disaster Relief, so I am looking 
forward to that. But I feel confident that James--in fact, I 
believe he is testifying before this Committee later this 
month. I think he has put in really good, solid programs to 
make sure that we do not get caught like we did with Katrina 
and Sandy.
    Mrs. RADEWAGEN. Thank you, Mr. Chairman. I yield back.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    The chair would note that the administrator mentioned 
Hurricane Sandy, and the Ranking Member was instrumental in 
proposing bipartisan legislation to improve the response to 
tragedies like Sandy, and that is something in a bipartisan 
manner that made it into law in the last Congress. So I would 
like to commend the Ranking Member for that. Absolutely.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Chairman CHABOT. Absolutely. Well, it is well deserved.
    So I would now like to recognize the gentlelady from 
Florida, Ms. Murphy, who is a ranking member of the 
Subcommittee on Contracting and Workforce, for 5 minutes.
    Ms. MURPHY. Administrator McMahon, thank you for being here 
today, and we look forward to working with you.
    As you mentioned in your testimony, you have spent 
considerable time visiting small businesses across the country. 
I recently met with my constituents from my district who told 
me that you are familiar with the National Entrepreneur Center 
located in Orlando and have been supportive of the range of 
services that they offer.
    For my colleagues who may not be aware of the NEC, the 
center is a public-private collaboration between various 
community resource partners: SBA, Orange County, and the 
University of Central Florida, among many others. It is home to 
various chambers of commerce and SBDC and our SCORE chapter, 
and serves as a one-stop shop for many entrepreneurs and small 
business owners to receive free or low-cost business 
development training and assistance, and I want to thank you 
for your support of the NEC.
    Last week, our Subcommittee held a hearing on SBA's 
entrepreneurial development programs, and we discussed the 
ongoing concerns that the SBA's resource partners with the 
agency's data collection. For example, the SBDCs in my State 
are concerned that the goals and metrics set by the SBA are not 
geared towards demonstrating quality of services and economic 
impact. Can you speak to this concern, and will you be meeting 
with leaders from the SBDC, SCORE, and WBCs to learn more about 
their programs firsthand? And then also, what do you think the 
metrics should be to measure quality of service?
    Ms. MCMAHON. It is interesting that you first spoke about 
the National Entrepreneur Center because it was very 
impressive. And actually, the head of that, Jerry Ross, and I 
met in my offices here in Washington just last week, because I 
think there are elements of it that could absolutely be 
incorporated with some of our SBA district offices that would 
make us more efficient and effective. Those two words I heard 
from Ranking Member Velazquez. It is the two words that I 
constantly say from a management perspective at SBA, the two 
things that are your guiding principles here, are our programs 
effective and efficient?
    One of the things that I asked when I came onboard, I was 
sitting with our CFO and I said, ``Tell me how we measure 
success at SBA. How do we measure success of our programs?'' 
And while there are some really good metrics in place, I think 
we have room for improvement. Some have been put in place over 
the last year or so. But I am not really satisfied that we have 
the kind of metrics that we need. I think right now we are 
measuring more output than outcomes, and I want that tightened 
up because I want them to be efficient and effective, and I do 
think we have room for improvement.
    Ms. MURPHY. Great. And then another question is despite 
multiple attempts by this Committee, several agencies 
continually fail to meet their small business contracting 
goals. Why do you think this is the case, and how can we work 
together to ensure that agencies meet contracting goals and 
take their duty to contract with small firms more seriously?
    Ms. MCMAHON. Well, I think we absolutely have to be 
vigilant for that because I think it is a privilege, quite 
frankly, to get a government contract. You know, to get a 
contract from the greatest customer in the world is really 
quite a coup. And if it is not being valued and serviced and 
really looking at what we need to do, then I think we need to 
look elsewhere, and maybe that contractor does not deserve that 
contract.
    Ms. MURPHY. And then finally, as you know, the Small 
Business Investment Program has a legacy of empowering women in 
the private equity community through greater deployable 
leverage and rigorous standards for operating a fund. With your 
support for the program, we can continue to empower women and 
other represented communities in the private equity community 
to support them as they build their businesses through 
receiving that investment. In your opinion, what can we do as 
partners to ensure that the program is well supported for these 
purposes?
    Ms. MCMAHON. Well, as I read in my opening statement, after 
I left my company, my former company and started a new company, 
Women's Leadership LIVE, one of the things that I did discover, 
what made me want to be involved in that particular company 
with my two other cofounders was looking at the availability of 
capital for women. I think it is an educational process on the 
one side. I did find, and this is not any sort of blame for 
women, but I did find out that in the business world, 
especially with startups, they are not quite as confident going 
forth.
    So part of what we need to do is to help them write their 
business plans. Help them where they are transitioning in their 
own company from a management level to a C suite, whether they 
are going to a board, mentorship and networking is so vital. 
And I think we have to provide that through our counseling at 
our Women Business Centers. I think that is really critical. 
And in our Office for Entrepreneurial Development it is a key 
thing to mentor because sometimes, as I said in my opening 
statement, you need a little wind beneath your wings. And what 
I mean by that is support systems. And so we are constantly 
evolving. In my short tenure at SBA, I have seen some of the 
progress we are making, but it is something I would like to 
expand.
    Ms. MURPHY. Great. Thank you.
    Chairman CHABOT. Thank you. The gentlelady's time is 
expired.
    The gentleman from Mississippi, Mr. Kelly, who is the 
chairman of the Subcommittee on Investigations, Oversight, and 
Regulations, is recognized for 5 minutes.
    Mr. KELLY. Thank you, Mr. Chairman, and our ranking member. 
And thank you, Administrator McMahon, for being here.
    You know, small business and entrepreneurs, and those small 
ideas that start in garages or places everywhere, are the 
American dream that turn into giant corporations. And I do not 
think there is a better representative of someone who has done 
that, taken it, all this pain and strife and dreams and wishes 
and turned those into reality in something that is worldwide 
recognized, and so I thank you for that. I think you are the 
exact kind of idea and person we need in this job to make sure 
that other people have those same opportunities going forward.
    I am extremely concerned to make sure that we continue to 
reach out with veterans. I am a veteran and still currently 
serve, and so a lot of those guys have the right ideas, guys 
and girls. They have the right ideas. They have the right 
hearts. They have everything in place except sometimes they do 
not know how to do that. We have a VBOC at Mississippi State 
University, which is just right outside of my district, but 
does such a great job. And so presenting those ideas to 
veterans is very important to me.
    But I want to start with talking about Executive Order 
13771, which the president signed, which says that, ``We will 
reduce regulatory burdens by identifying two regulations for 
elimination for every one new regulation that we promulgate.'' 
What steps has the Small Business Administration taken to 
identify rules and other requirements that could be repealed or 
streamlined?
    Ms. MCMAHON. Thank you very much. Just to, if I may, just 
to comment. Thank you for your compliment relative to where WWE 
went in the world and to come from recovering from bankruptcy 
to take a company public and to have a global brand is the 
American dream. And I really want to make it possible through 
efforts of SBA to make more entrepreneurs, to give them the 
opportunity of living the American dream.
    What we have done relative to the regulatory issue is to 
form an advisory committee that is now going through 
regulations, et cetera, at SBA, to see if there are those that 
we would like to get rid of. So it is an ongoing process.
    Mr. KELLY. And as kind of a follow-up, does the Small 
Business Administration plan to issue a Federal Register Notice 
to publicly solicit input from particular small businesses on 
regulations, guidance, and other reporting and recordkeeping 
requirements that should be repealed or streamlined?
    Ms. MCMAHON. I am always interested in hearing what our 
small businesses have to say, or have, you know, their 
suggestions, their concerns, their questions. We have conducted 
business roundtables and will continue to do that. And I do not 
think there is any better source of understanding what the 
perils and the issues are than to listen to the business 
community. Because if you are not there, you are not 
experiencing it and we need that input.
    Mr. KELLY. Thank you for that comment. I think you hit the 
nail on the head. We do not know the impacts as Congress or as 
administrators near as greatly as those small businesses who it 
is impacting.
    The final thing I want to talk about is transparency. It 
was an issue in the past with the SBA. For example, during the 
last administration, the SBA made decisions with no formal 
written record of the decision or how the decision was made. 
How will you ensure that the SBA is transparent under your 
leadership?
    Ms. MCMAHON. It is just something I will require and I will 
not tolerate it being any less.
    Mr. KELLY. And then finally, and I do not think I have 
enough time to really get into an in-depth answer of this, but 
one of the other things that I think is just so important that 
you look at as a new administrator in providing your leadership 
and ideas is the SOPs. We have over 150 SOPs, or standard 
operating procedures, throughout the Small Business 
Administration, and I just ask that you and your team look 
really, really closely with that to make sure that we have the 
right ones in place. And much like the executive orders, those 
parts and pieces and SOPs that are really no longer SOPs or we 
need, please do away with those and streamline it so it truly 
is a standard operating procedure instead of just a bunch of 
rules and regulations that no one complies with.
    And with that, Mr. Chairman, I yield back.
    Chairman CHABOT. Thank you. The gentleman yields back.
    I assume the administrator did not have any comments on 
that question?
    Ms. MCMAHON. Just quickly to say that that process is 
already in place. We are reviewing those and it is part of what 
our CFO is doing, our COO's office, you know, with input from 
the other agencies as well, the other offices. So I am looking 
forward for streamlining. I am all about streamlining.
    Chairman CHABOT. Thank you. The gentleman yielded back.
    The gentlelady from New York, Ms. Clarke, is recognized for 
5 minutes.
    Ms. CLARKE. I thank you, Mr. Chairman and our Ranking 
Member Velazquez. And I welcome Administrator McMahon here this 
morning, for giving your testimony.
    I wanted to ask a bit about the HUBZones. I am from New 
York City, and, in concept, the HUBZone program should be an 
economic boom. A recent GAO report found significant issues 
with HUBZone firms who are seeking recertification. In addition 
to the backlog that currently exists, the firms are not 
required to submit supporting documentation for their reviews. 
Is SBA taking any actions to correct these issues raised in the 
GAO report? And what actions are being taken to reduce fraud 
and abuse during recertification?
    Ms. MCMAHON. Well, thank you very much for that question. 
HUBZones, I will be frank, I do not think is one of our stellar 
programs right now because we need to look at them much closer. 
Now, I have not had much of an opportunity to really delve into 
the HUBZone issue, but I do know that there have been these 
questions raised.
    One of the things that I want to do, in fact, I have talked 
to Secretary Carson about visiting some HUBZones with him as he 
is coming in from HUD, and I think that that will give more of 
an insight into how we can make them more effective. But we 
have got a ways to go, and you have my commitment that I am 
going to be looking at it much closer.
    Ms. CLARKE. Wonderful. We hope to work with you to fine 
tune it because, conceptually, it should yield great things in 
terms of economic stimulation----
    Ms. MCMAHON. I agree.
    Ms. CLARKE.--particularly in areas that have been stagnant 
for quite some time.
    My second question is while the overall number of loans--
and this is going back to the 7(a) loan program--has increased, 
the percentage of (7)a loans going to women-owned and minority-
owned firms have remained fairly stagnant, fairly flat, since 
2010. What actions will SBA take to improve access to capital 
for these firms?
    Ms. MCMAHON. Well, thank you. And clearly what we are doing 
is making sure that we have more and more women especially 
applying for those loans. And I think that gets back to Women's 
Business Centers and our Entrepreneurial Development Office to 
encourage the development of these businesses. But, you know, 
quite often a great idea does not make a good business, and I 
think part of what we need to do when we have entrepreneurs 
come into our offices for counseling, is to also take a look at 
it and let them know, you know what? This is a great idea, but 
it may not be the best idea. Here is how you might improve your 
business plan. Here is how you might think about how you would 
scale your business. And helping them walk through that whole 
process, then putting forth the opportunity to have access to 
capital, go for capital.
    But we are absolutely looking at our lending institutions 
as well to make sure that women are not being discriminated 
against because we know right now that women do not get as many 
loans. Often, there is a higher interest rate for that money. 
And you know what? That is part of our lender oversight, 
because we want to make sure that they are not doing that.
    Ms. CLARKE. Well, I am glad that you are looking at all 
aspects of this because indeed there is discrimination. And we 
need to call it what it is and remove those obstacles for 
women- and minority-owned firms that are already in business, 
but have been, for whatever reason, discriminated against and 
tend not to be given those opportunities through our 
traditional lending mechanisms. So I appreciate the fact that 
you are looking at this in a holistic manner.
    And with that, Mr. Chairman, I yield back.
    Chairman CHABOT. The gentlelady----
    Ms. MCMAHON. May I just make another comment?
    You know, the entrepreneurial environment in our country 
over the past few years have been declining startups, but the 
startups that are on the rise are women businesses and they are 
also more successful. And also, women minority-owned businesses 
are even the lead in that. So it is certainly to the benefit of 
SBA, to our economy, to our country, to continue to grow this 
aspect. I mean, we are 51 percent--we, women are 51 percent--of 
the population, make 80 percent of the purchasing decisions in 
our home, so the economy misses out by not having that part of 
the population have the same access to capital and the same 
opportunity to be treated fairly and equally.
    Chairman CHABOT. The gentlelady yielded back.
    The gentleman from Kentucky, Mr. Comer, is recognized for 5 
minutes.
    Mr. COMER. Thank you, Mr. Chairman, Administrator McMahon.
    Ms. MCMAHON. Good morning.
    Mr. COMER. I am James Comer from Kentucky. Welcome.
    Ms. MCMAHON. Thank you. Good basketball there.
    Mr. COMER. Yeah, absolutely. We should have beat North 
Carolina, but that is another story.
    Ms. MCMAHON. Well, no, I am a North Carolina girl, so I 
was, you know.
    Mr. COMER. My first question is what is your definition of 
a small business? And I ask that because a lot of the Federal 
contracts that are awarded specify that a certain percentage of 
the contract is supposed to go to small business vendors or 
subcontractors. And a lot of my small business subcontractors 
do not get the contract and they complain and say that the 
company that won the contract was a big business. And I did not 
know if you had a definition of exactly what a small business 
was.
    Ms. MCMAHON. Before I came to SBA, when I thought about a 
small business, I thought about the barber shop on the corner, 
the deli down the street, the dry cleaning establishment, et 
cetera. I know that there are different criteria for different 
industries in SBA. A general rule is 500 employees or under. 
For manufacturing, it is a little bit bigger. There are some 
bottom-line aspects to it as well. But I think the bigger issue 
that you want to address is to make sure that it is not medium 
to large businesses that are given preferential treatment over 
our small businesses in our contracts and our capital access 
program and all of that. And that is something I want to be 
really vigilant about and have given that instruction.
    Mr. COMER. The SBA guarantees loans all over the country. I 
have been a director of a small bank, and some of the banks in 
my district do a lot of small business loans, SBA loans. Some 
of them do not because of the paperwork. Two questions. Just 
out of curiosity, do you have any idea what the delinquency 
rate is? I know this would have happened before you got there, 
but what percentage of SBA loans fail and the SBA has to cover 
those loans?
    And second, what are some things that we can do with 
President Trump? Obviously, he is focused on reducing the 
regulatory burden. Are there other things this Committee can do 
to reduce the regulatory burden to make it more advantageous 
for banks to do SBA loans?
    Ms. MCMAHON. Well, relative to the regulatory environment, 
it is such a big issue. A lot of what you hear from small 
businesses, which I heard when I traveled across the State of 
Connecticut was just the paperwork alone to comply with the 
regulatory environment, you know, they are small business 
owners. I mean, you have got, let us call it the CEO, who also 
sweeps up at night and closes the business, he does not have 
time or she does not have time to do it herself, or she does 
not have the income to hire the people to do that. So in all 
areas, if we can look at what regulations are really necessary, 
because nobody thinks that we should be able to just run and do 
things the way we want, you know, there are regulations that 
are very important.
    But I think it is incumbent upon us to listen to the small 
business community about what is choking them. And that is one 
of the things that I want to do is to have more and more 
listening sessions around the country so that we can help those 
things that SBA can directly affect as well as what suggestions 
or advice we might offer to the administration. This is what we 
are hearing. So if you would take that into consideration as 
well.
    Mr. COMER. And hopefully, we will do some things from a 
lending standpoint, like repeal Dodd-Frank, and do some things 
that will make it easier to obtain capital. But back to the 
question about the percentage of loans that are delinquent, do 
you have any idea of what that number would be?
    Ms. MCMAHON. No, I do not have the percentage, but I do 
know that we are reducing the default rate, which I think is 
good. And that goes into, also, you know, better oversight of 
our lenders because, ultimately, lenders make the decision as 
to whom they are going to have as a customer. We, then, 
guarantee that loan.
    Mr. COMER. Right.
    Ms. MCMAHON. So we want to make sure we are really 
qualifying our lenders so that they are really good at what 
they are doing. If we see a pattern or a trend of defaults in 
those areas, we know we have the wrong lenders in place.
    Mr. COMER. Thank you, Mr. Chairman. I yield back.
    Chairman CHABOT. The gentleman yields back. Thank you.
    The gentlelady from California, Ms. Chu, is recognized for 
5 minutes.
    Ms. CHU. Administrator, I would like to ask you about the 
Community Advantage Lending program. This was the program that 
was started in 2011 by the SBA as a loan guaranty allowing 
certain mission-driven lenders, including CDFIs and micro 
lenders, access to 7(a) loan guarantees for up to $250,000 made 
to small businesses in underserved markets. In this case, 
underserved markets include low- to moderate-income communities 
in economically distressed areas, both urban and rural. The 
initiative has gained a great deal of success. In fact, each 
year it has become more and more active. And in February alone 
there were 3,093 loans that were approved for a total value of 
$390 million. What is even better is that the average loan size 
was $127,000, which is much smaller than other SBA guaranty 
programs.
    So I believe that it is imperative for the SBA to continue 
encouraging this kind of small-dollar lending activity, 
especially in the underserved markets and to support businesses 
that are oftentimes perceived as not bankable so that they can 
eventually become bankable.
    So Administrator McMahon, could you tell us your thoughts 
on the community advantage guaranty and whether it should be 
maintained, if not strengthened?
    Ms. MCMAHON. I definitely think it should be maintained. It 
kind of serves an interim area, if you will. It is not 
microloans which are up to $50,000, but it goes up to the 
$250,000 mark. Oftentimes, businesses are already in place and 
are growing, but in order to scale up or continue to grow, now 
they need some additional funding. And that is one of the 
things that the Community Advantage program can do is to help 
continue those businesses because clearly, as those businesses 
continue, they are going to hire more people. They are going to 
create more jobs and it is going to be clearly accretive to our 
economy.
    Ms. CHU. Well, let me ask this. Many of these mission-based 
lenders have reported great interest from local small 
businesses in getting these loans. However, since it is a 
pilot, the lenders face uncertainty because the initiative must 
be extended each time upon expiration. Do you think that there 
could be benefits to making the program permanent?
    Ms. MCMAHON. Well, I do believe in performance-based 
awards. So as we continue to look at the success of these 
programs, I think it is too new to say right now that it should 
be permanent. I think we should still continue to look at how 
it performs. And I am all in favor of that and want to continue 
programs that we are seeing that kind of success with because I 
think it helps so many small, but also getting close to a 
little bit of a medium-sized business.
    Ms. CHU. And on another note, Administrator McMahon, I was 
interested in learning about your years encouraging women to 
become entrepreneurs, and I want to thank Ranking Member 
Velazquez for bringing up the issue of women having access to 
the SBIC funds. That is an issue that is very important to me.
    Last year, I held a field hearing in my district to learn 
more about why venture capital and angel investment is 
particularly difficult for women entrepreneurs to access, and 
we learned that it is because there are very few women in 
lending positions, and it is a problem because when you do have 
women in lending positions, they do tend to encourage more 
women borrowers and actually lend those monies. So the SBA's 
SBIC program is so great because it provides a critical 
investment capital to small businesses across the country, but 
there are still too few SBIC investments in women-led firms and 
even fewer SBICs with women partners. And so while SBIC 
programs have a higher proportion of female managers than the 
broader VC community, more must be done to increase these 
numbers in both realms. So do you think there are ways to work 
within the SBIC program to ensure that there are more women 
qualified to become fund managers when the opportunities become 
available?
    Ms. MCMAHON. Well, I think one of the things we can look at 
when we are looking at these venture capital firms is what is 
the makeup of the group that is part of that company and say, 
you know what? We would like to see more women, and to then 
start to identify some of those venture capital firms that do 
have more women. I think we can clearly do that.
    Ms. CHU. Thank you. I yield back.
    Chairman CHABOT. The gentlelady yields back. Thank you.
    The gentlelady from Puerto Rico, Ms. Gonzalez-Colon, is 
recognized for 5 minutes.
    Ms. GONZALEZ-COLON. Thank you, Mr. Chairman. Thank you, Ms. 
Ranking Member. And thank you for having us here in this public 
hearing and thank you, Administrator, for being here. Actually, 
I am inviting you to come to Puerto Rico and help us there.
    One of the questions I want to make is about the HUBZones.
    Ms. MCMAHON. I am sorry, what?
    Ms. GONZALEZ-COLON. HUBZones. The underutilized business 
zones, HUBZone program.
    Ms. VELAZQUEZ. I am sorry, I am just not understanding.
    Ms. GONZALEZ-COLON. HUBZone.
    Ms. MCMAHON. HUBZones. Sorry. I am sorry. Thank you.
    Ms. GONZALEZ-COLON. You may be aware, the expansion of 
those HUBZone designated areas is a topic that the General 
Accountability Office has been studying, and I aware that they 
are going to have a report this summer. But also, the Puerto 
Rico Oversight Management and Economic Stability Act, known as 
PROMESA, expanded the number of HUBZone designated areas, 
adding over 500 of those in the island. Can you generally speak 
about how this increase will help Puerto Rico's economy if you 
can help us in that?
    Ms. MCMAHON. Well, thank you. And sorry that I was not 
understanding what you were saying. I apologize for that.
    Actually, I think SBA got in a little bit of trouble in 
Puerto Rico because we took a little bit of expansion and kind 
of made it more than island-wide and it was not authorized for 
us to do that. So we are dealing with that a little bit now.
    I actually have not looked at Puerto Rico so closely since 
I came on board, but what we have done, as a matter of fact, I 
asked one of the members at SBA who is a young man--actually, 
might even be here this morning. His name is Michael Morales. 
He was born in Puerto Rico. His grandparents still live there. 
He is a White House fellow with SBA. He is a lieutenant colonel 
in the Air Force, and I asked him to research Puerto Rico and 
some of the programs that we have in place, and he actually now 
has proposed a plan. He wants to go and visit the lenders and 
visit the communities and see how SBA can have more of an 
impact in Puerto Rico and what our programs ought to be. So we 
are taking that initiative, but it has just started. I just got 
the research.
    Ms. GONZALEZ-COLON. I know, and I really thank you for 
that, and I am able to help you in that.
    Ms. MCMAHON. Thank you. I might have to come myself and, 
you know, Puerto Rico is a very nice place to visit.
    Ms. GONZALEZ-COLON. I know. I can tell you that. And 
actually, I can drive you around. There are so many areas. One 
of those is----
    Chairman CHABOT. Would the gentlelady yield? Would the 
gentlelady yield for a second?
    Ms. GONZALEZ-COLON. Yes.
    Chairman CHABOT. One thing I might bring to the 
administrator's attention, and there is no reason for her to 
know this, but the gentlelady was the speaker of the house in 
Puerto Rico, so she is very familiar with virtually everything 
that goes on down there. And the ranking member has a lot of 
knowledge relative to Puerto Rico and she is chomping at the 
bit, I think, to say something. So if the gentlelady does not 
mind, I will give her additional time.
    Ms. VELAZQUEZ. Would you yield?
    Ms. GONZALEZ-COLON. I just want to have my time. I do not 
mind.
    Chairman CHABOT. I am going to give you a little extra.
    Ms. VELAZQUEZ. He will give you more time.
    Ms. GONZALEZ-COLON. Okay, perfect.
    Ms. VELAZQUEZ. Administrator McMahon, let me just stress 
the fact that Puerto Rico is in deep trouble financially.
    Ms. MCMAHON. Yes.
    Ms. VELAZQUEZ. And that we work here in Congress in a 
bipartisan way to provide tools for Puerto Rico to deal with 
the public debt, but yet, it requires more of the federal 
government. And in that sense I am working and I will be 
working with the chairman and the gentlelady from Puerto Rico 
to work on a bipartisan package that will help SBA put together 
a comprehensive way to help small business formation and 
economic development in Puerto Rico, and I am looking forward 
to working with you.
    Ms. MCMAHON. Thank you. And I look forward to that 
opportunity. You and I talked a little bit about that in your 
office, and I would be excited to help.
    Ms. VELAZQUEZ. Thank you.
    Ms. MCMAHON. And look forward to that.
    Chairman CHABOT. Thank you. And the chair would note that 
the gentlelady should be happy that we have put another minute 
back on there and we stopped the clock running, so you have got 
3 minutes and 1 second to continue.
    Ms. GONZALEZ-COLON. More than happy to hear that and that 
bipartisan effort. I thank the ranking member and Mr. Chairman 
for the help.
    And actually, I do understand that the work that the task 
force on PROMESA, the report that told us about to do something 
with the SBA and the island, is the right path to Puerto Rico's 
economy. So I thank you, Ranking Member and the Chairman of the 
Committee, for allowing that to happen.
    There are 676 HUBZone areas representing as you may say 82 
percent of the island, the whole island, and one of the main 
questions regards or the concern is what is the main problem to 
achieve the 3 percent contract with the Federal Government? 
Because people do not know about how to do it. How do you think 
we should help or say the government may help the SBA 
administration to achieve the 3 percent prime contracting goal?
    Ms. MCMAHON. Well, as Ranking Member Velazquez said, you 
know, these are programs that she is looking at as well, and I 
look forward to working with her. I do not have that answer 
today.
    Ms. GONZALEZ-COLON. Okay.
    Ms. MCMAHON. But I can tell you this, that the success rate 
in Puerto Rico when SBA has come in to help with small 
businesses has been there. So we would like to continue it. 
Finding lenders is paramount, but we also need to help with the 
counseling. It is going to be a big project and one that I am 
actually not qualified to talk about this morning. But I look 
forward to getting back to you.
    Ms. GONZALEZ-COLON. I thank you for your sincerity and 
honesty. I think that is what makes you a great administrator.
    Ms. MCMAHON. Thank you.
    Ms. GONZALEZ-COLON. One of the issues I would like to 
address is about I know the SBA is currently exploring some 
issues regarding the island seminars, visiting some towns. With 
that, I would like to help in that area and be the coordinator 
between State government and the Federal Government to make 
that goals to be achieved.
    One of the other areas is the Disaster Loan program and, as 
you already state, we are on an island so we get hit by 
hurricanes in a common year many times, and we saw what 
happened in Katrina, we saw what happened in Sandy. So we want 
to be able to know what responsibilities directly is the SBA 
role of the Disaster Loan program to the small business 
community?
    Ms. MCMAHON. Do you find that today there are deficiencies?
    Ms. GONZALEZ-COLON. In the past?
    Ms. MCMAHON. Yes.
    Ms. GONZALEZ-COLON. Yes.
    Ms. MCMAHON. Could you help me identify what they have been 
so that as we move forward with our programs we will know, 
okay, this is what did not work, this is where you did not step 
up to the plate to help us? Maybe there is a reason for that; I 
do not know. But we want, regardless of where the area is, our 
commitment to our Disaster Relief program is paramount. So I 
would like to know what the issues are so that we can be very 
effective in addressing them.
    Ms. GONZALEZ-COLON. I will do that, and thank you, 
Administrator, for your commitment to small business.
    Thank you, Mr. Chairman, I yield back.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back.
    The gentleman from Illinois, Mr. Schneider, who is the 
ranking member of the Subcommittee on Agriculture, Energy, and 
Trade.
    Ms. VELAZQUEZ. He just left.
    Chairman CHABOT. Oh, he just left. Okay.
    Mr. Evans is recognized for 5 minutes. Thank you.
    Mr. EVANS. Thank you, Mr. Chairman.
    Madam Administrator, in your statement you were speaking of 
revitalizing the agency and raising its profile as you want to 
initiate Small Business Development Centers, and I also 
understand the President also indicated that this is a 
priority. Now there is an opportunity to make honest 
assessments of the Small Business Development Centers and other 
entrepreneurial programs. Are you open to meeting with these 
people and can you speak a little bit to some of your thoughts 
and ideas at this point relating to these organizations?
    Ms. MCMAHON. Absolutely, and thank you for asking me that.
    Not only am I willing, I think it is mandatory to go in so 
that we can help evaluate, see where we need to be stronger and 
better. One of the things that I have talked about from the 
beginning at SBA, I mean, I come from a company that created 
its success from marketing and promotion. One of the things 
that I found about SBA is we do not toot our own horn enough. 
There are not enough people that know what our services are and 
how we can be helpful, so I really want to change that. I want 
our field offices to know that they have our support. I want to 
visit with them. I want to make sure that they are connecting 
with the community, connecting with lenders, and I think we 
cannot--I cannot get a handle on how all of the programs are 
operating if I am not visiting them and asking those questions. 
So not only am I willing, but it is clearly something I intend 
to do. And we look forward to working with any members who are 
here when we are coming into your districts because you 
obviously know your districts better than we do, so I would 
really look forward to that.
    Mr. EVANS. Can you speak to goals or metrics that either 
are in place or will be in place for programs that are geared 
to improving the performance, programs offered by SBA and 
quality services thus resulting in economic impact? I heard you 
talk a little bit about just generally asking what works and 
what does not. Any thoughts in terms about economic impact?
    Ms. MCMAHON. Well, I think the phrase that I used before 
was I think that our metrics right now--well, in the past they 
have already started to improve and to be reconfigured, but the 
metric that I am looking for is to measure outcomes, to measure 
successes, not to measure output. For instance, I will just use 
a little example. You know, if a worm is crawling along and he 
has got to get here and he is just crawling at a slow pace, he 
is just going to keep after it and keep after it and keep after 
it and keep after it. But he actually may not be taking the 
best path to get to his goal. Now, I want to make sure that 
everyone in SBA is taking the best path to get there, but 
before they start out, I want to make sure that the 
accountabilities are in place.
    One of the things that I found when I came, when I asked 
the question about how do we measure success, I clearly was not 
satisfied with the answer. So we are putting more metrics in 
place at this point, but in terms of giving you a specific 
example, just let me say that we are working across the board 
to make sure that our measurements, A, that people know what 
they are to start with and that they are going to be measured 
against those accountabilities.
    Mr. EVANS. Madam Administrator, we have obviously heard a 
lot of talk about tax reform, and obviously that seems to be 
across the board and the general discussion. What is your 
thoughts about the implementation of tax reform at this 
particular point and the potential impact it has? I mean, 
obviously there was a discussion of tax reform in 1986. 
Reality, here we are in 2017. The world has changed a lot since 
1986. Give me a little thought about if you had your crystal 
ball relating to tax reform and its impact.
    Ms. MCMAHON. Well, I certainly do support President Trump's 
policies for tax reform, for reducing taxes at a corporate 
level, for making sure that our middle-income taxpayers have 
greater breaks in tax reform, because I firmly believe that 
reduction in taxes will actually grow our economy. And when I 
first started my company, we were a sub S corporation, so all 
of our income passed through to sub S and we were taxed at the 
same rates. And I think that when we do pass tax reform, it 
needs to apply to those LLCs and those subchapter S 
corporations so that they recognize the benefit from tax reform 
and, therefore, can grow their businesses. So I think from a 
small business perspective, as well as from a large company and 
economy, tax reform is going to help us be more competitive in 
the world. So I am clearly supportive of the President's 
efforts to do that.
    Mr. EVANS. Thank you, Mr. Chair. I yield back the balance 
of my time.
    Chairman CHABOT. Thank you very much. The gentleman's time 
is expired.
    The gentleman from Kansas, Dr. Marshall, is recognized for 
5 minutes.
    Mr. MARSHALL. Thank you, Mr. Chairman.
    Madam Administrator, the National Small Business 
Administration recently met like 2 or 3 weeks ago and we have a 
great relationship back home with some of these people, and 
they walked out of that meeting and they said their biggest 
concern is health care. It overtook regulation. For years, 
overregulation had been their biggest concern. We spend most of 
the time up here talking about Medicaid and small individual 
groups. Do you have any suggestions or concepts, what are the 
biggest problems with health care for small businesses and what 
are your suggestions going forward? Is there anything that we 
can do working together to help with this biggest problem they 
are describing, health care?
    Ms. MCMAHON. Well, from my own experience, when I was 
campaigning in the State of Connecticut for the Senate, one of 
the things I heard so often from our small businesses was the 
increase in premium costs. Clearly under Obamacare, which had 
come into place at that time, they were having great 
difficulty. They were either wanting to stay on the side of the 
50 employees or they were having to reduce benefits. They had 
asked their employees to increase their copays, but it had 
gotten to a point that they could not increase copays anymore, 
so they were faced with oftentimes laying off some of their 
employees. So that is the one specific example, you know, that 
I can cite that I heard over and over again was it was the cost 
of healthcare premiums.
    Now, you know, we know that employer health care is one of 
the best that we have in the country, and my former company, 
WWE, was self-insured because we--up to a certain level and 
then catastrophic came in and that is what the company paid for 
over and above. We were fortunate to be able to do that, but 
small businesses cannot. I would like to see consortiums where 
small businesses could buy in. I would like to be able to buy 
insurance across State lines because I do think competition is 
going to drive down the cost of health care, and small 
businesses really would be great beneficiaries of that.
    Mr. MARSHALL. And maybe just expand a little bit on that. 
So you would envision associations of small business, so maybe 
even the National Small Business Association could have their 
own health insurance plan across State lines?
    Ms. MCMAHON. Potentially, if that worked for them and we 
found that it was cost-effective. I do not know that particular 
studies have been done relative to that. If there are, I am not 
familiar with them, but I would be very interested in seeing 
them because as we talk to our small businesses as they are 
trying to plan and write their business plans, they have to 
look at what the cost of business is, whether they have 
mandates, whether they have more options is often a make or 
break situation for a small business.
    Mr. MARSHALL. Exactly. Let us talk about maybe 
overregulation for a little bit. Any specific examples, or what 
can your department do to help with the regulations? Or what 
would you suggest Congress be doing to work on these 
regulations that affect specifically small businesses?
    Ms. MCMAHON. Let me give you one example. Again, when I was 
campaigning, because that is when I was traveling to these 500 
different companies, there was a small business in Connecticut 
that used chemicals, et cetera, in its process for stripping 
metal and for applying the next coat of metal. And the CEO of 
that company said to me, he said, ``Look, I absolutely believe 
that I should be regulated. You know, test to make sure I am 
not putting poisonous vapors into the environment. Make sure 
that I have got safety regulations in place because these are 
caustic chemicals.'' He said, ``I do not have any issue with 
that whatsoever.'' And he said, ``But when regulators come in 
and they really do not find issues relative to those things, 
but feel that they must find something wrong,'' he said, ``I 
was fined $15,000 because the lettering on the men's and 
women's bathrooms was not at a size that had been specified in 
the regulation.'' Clearly readable. Nobody was going into the 
wrong bathroom, but $15,000 can be a big hit to small 
businesses.
    So I mean, that is an extreme example, but it is an example 
of some of the things that a small business might face. And it 
was not as though the regulator said, ``You know what? Fix 
this. I will be back in 30 days.'' The fine was levied that day 
and he had to pay.
    Mr. MARSHALL. If I can ask my last question, what can we as 
a small business group here or in Congress do to help empower 
you to do your job better? What can we do to help you?
    Ms. MCMAHON. The fact that you are willing to sit with me 
and SBA, to counsel us, to show us where we have weaknesses, 
where we might can improve, or to show us where we are really 
doing well, and how can you and your local areas help us be 
more effective would be a great benefit to SBA, and we will 
seek your counsel and working with you. And I look forward to 
it.
    Mr. MARSHALL. Thank you, Madam Administrator. I yield back.
    Chairman CHABOT. Thank you. The gentleman's time is 
expired.
    The gentleman from Illinois, Mr. Schneider, has returned, 
and he is now recognized for 5 minutes.
    Mr. SCHNEIDER. Thank you, Mr. Chairman. I apologize for 
stepping out. I am bouncing between two Committees and they 
called a vote.
    Ms. MCMAHON. I figured you had heard all you needed to 
know.
    Mr. SCHNEIDER. No, but I will tell you, with all due 
respect, Madam Administrator, I have been very pleased with 
what I have heard, and thank you for being here and sharing 
with us your perspective. I come from small business, as do 
you. I think it is so important. You touched on the growth of 
small business, the highlight that women entrepreneurs have 
been starting up businesses, but also the concern that we are 
not seeing enough startups. I will share the concern that since 
the Great Recession, typically, every previous recession it was 
small business that led us to the recovery. In this one it is 
small business that has lagged and I think there is a number of 
reasons for that, including concerns about uncertainty and 
policy, access to capital, access to talent, which is so 
important.
    You talked about in your opening remarks the importance of 
trying to revitalize the agency and raise the profile of the 
SBA, your words. I just wanted to touch on that a little bit. 
What do you see as your vision? How do we go about doing that 
and how can we help you in that mission?
    Ms. MCMAHON. Thank you. One of the things I said when you 
were out was that I do not think SBA toots its horn enough, and 
I think we need to make sure that in the communities that there 
is a greater awareness of what benefits the SBA might bring. 
And I am a perfect example. Growing the business, I did not 
know about SBA. And when you are just starting a business that 
maybe does not have brick and mortar or hard assets and your 
business is really valued on cash flow, it would be incredibly 
helpful to have a SBA partner who could understand and see that 
progress and help be, you know, your advocate, maybe direct you 
to lenders who could help evaluate that. And I think that is 
one of the things that SBAs ought to do.
    My first couple of weeks as administrator, I was gathering 
different groups within the company because I wanted to hear 
what they had to say and we had this vibrant young group. I 
called them ``the kids.'' That just shows how old I am. But 
they were very enthusiastic about social media, about Twitter, 
Facebook, all of the things that at WWE we used very, very 
well, and we are just beginning to use them in SBA. But I asked 
this group, you know, what do you see? How can we be better at 
what we are doing? We do not want to be your father's SBA. We 
want to be today's SBA, growing companies and making sure 
entrepreneurs are feeling more comfortable about taking risks. 
Because that is what entrepreneurs do; they take risks. And if 
they are operating in an environment where the risk is too 
great, they are not going to take the risk. So I think through 
education and through SBA being a little bit more vocal, it can 
help entrepreneurs understand that that is changing, that 
lenders are more willing to lend at this particular point.
    There was a terrible time where community banks, you know, 
we lost our community banks. Big banks bought them up and so 
there was not that access to capital that entrepreneurs had at 
one particular time, so I think we are seeing more and more of 
that today. So I want to make sure that--you always have to 
manage the downside, but that upside that you reach a little 
bit for the brass ring, but through counseling and good advice 
I think we can do that.
    So this group, back full circle, this group of young people 
that I had, I challenged them. I said, ``I want you to come 
back in 2 weeks. I want to see your marketing plan. I want to 
see what you want to do.'' And they left there buzzing, their 
little groups in the hallways talking about what they could do. 
That kind of life in a company is just critical. So if you can 
generate that kind of internal buzz, you know you have got 
programs that are doing well.
    Our 7(a) loans are being very proficient, but what is going 
to happen when we get the morale issue? And we have dealt with 
a morale issue. If we can get that buzz going to our district 
offices and everywhere, you wait and see what kind of SBA 
programs get put into place, how many more jobs we create, how 
we encourage entrepreneurs to come in. And I am all about that. 
And these young people came back with a great plan and part of 
it is being implemented now.
    Mr. SCHNEIDER. Well, if I add just a couple things, 
entrepreneurs have dreams. Right?
    Ms. MCMAHON. They do.
    Mr. SCHNEIDER. They see a future. They see things. 
Hopefully, they see things that the rest of us do not see and 
that creates opportunities for more people. Oftentimes they may 
see the dream, but they do not see the how or they do not see 
the steps. If our shared role can be helping teach people the 
how, making it easier to access the how, which is both having 
talent, having capital, having the ability to write a business 
plan, but also clearing the obstacles in their paths and making 
sure that their paths are steps forward rather than having to 
go around barriers, and that is something I hope we can work 
together on.
    Ms. MCMAHON. Thank you. I think that would be critical, and 
I look forward to that. Thanks so much.
    Mr. SCHNEIDER. Thank you, and I yield back.
    Chairman CHABOT. Thank you. The gentleman's time is 
expired.
    The gentleman from Iowa, Mr. Blum, who is the chairman of 
the Subcommittee on Agriculture, Energy, and Trade, is 
recognized for 5 minutes.
    Mr. BLUM. Thank you, Chairman Chabot. Is that correct?
    Chairman CHABOT. It is correct, and I thank the gentleman 
for that.
    Mr. BLUM. I am a business person. I am slow, but I am 
trainable.
    Ms. MCMAHON. But you are not like all business people then.
    Mr. BLUM. Administrator McMahon, good to see you again. 
Thank you for being here today. Thank you for stopping by our 
office. I thoroughly enjoyed swapping stories with you about--
--
    Ms. MCMAHON. So did I.
    Mr. BLUM.--our startups. The tough times. We both ended up 
with companies that went public, and I also would, first of 
all, thank you for that.
    Second, I would like to salute President Trump on his 
choice of yourself for this position. I have often thought that 
it makes a lot of sense to have someone in your position that 
has signed the fronts of paychecks, that has been there, done 
that. And we have that person in you, so I salute the 
President. Congratulations, and thanks for stopping by our 
office. I appreciate you very much.
    Ms. MCMAHON. Thank you.
    Mr. BLUM. 2008, we are well aware of what happened that 
year. Federal Government, the Federal Reserve, we had to bail 
out the big banks in the financial meltdown crisis. And a lot 
of taxpayers were upset by that, and rightly so. And rightly 
so. It seems to them that we privatized profits and socialized 
losses, and I am with them. We should not be doing these 
bailouts.
    So something I am always concerned about and ask about is 
the exposure to taxpayers, and I think of the loan portfolio, 
guaranty portfolio that the SBA carries. And I want to make 
sure that that does not somehow end up on the taxpayers' backs. 
Maybe I will ask you, how large is that portfolio of loan 
guarantees today?
    Ms. MCMAHON. As for our SBIC program, it is about 14- or 15 
billion. Through just our loan programs we are up to about 24 
million, 24-, 25 million I think is where we are.
    Mr. BLUM. Billion?
    Ms. MCMAHON. Mm-hmm.
    Mr. BLUM. Billion, yeah. The number I had was like 33 
billion in total. It is not a gotcha question.
    Ms. MCMAHON. About right.
    Mr. BLUM. That is a lot of money. What is the default rate? 
Are you aware of what the default rate on those guarantees are? 
Because by nature they are a little bit riskier than your 
average loan.
    Ms. MCMAHON. You know, I am sorry, I should have that 
number for you today, but I do not. I just know that we 
carefully monitor our lenders and that is why we want to make 
sure we qualify our lenders so that we do not have that kind of 
default rate because we are guaranteeing it, yes. Taxpayers are 
at risk.
    Ms. VELAZQUEZ. Would the gentleman yield?
    Mr. BLUM. Absolutely, I yield.
    Ms. VELAZQUEZ. On 7(a), it is less than 1 percent.
    Mr. BLUM. Thank you.
    Ms. MCMAHON. And I started to say that, but I could not 
remember if that was exactly the right answer or not.
    Mr. BLUM. Given the risky nature, 1 percent is fantastic. 
That is great. That is a low default rate. Very good.
    Ms. MCMAHON. If the ranking chairman says it is less than 1 
percent, I buy that, yes, she is right.
    Chairman CHABOT. Do not argue with her either.
    Ms. MCMAHON. No, I am not going to argue with that because 
I know she knows her facts.
    Mr. BLUM. How are those loan guarantees reviewed? Are they 
reviewed by the normal bank examiners, the Federal Reserve and 
the State examiners that come through? Or does the GAO review 
those? How are those reviewed to make sure we are not sitting 
today on top of a future bad situation?
    Ms. MCMAHON. Well, I do know from internally at SBA, we 
look at them on a daily basis and we constantly are in touch 
with our lenders to make sure that they are lending to 
creditworthy people. And as I said before, they are the ones 
who qualify the lenders in terms of, you know, it is a regular 
bank, but I would be guessing to tell you how all that 
oversight goes. But I would be happy to get back to you with 
that because I do not----
    Mr. BLUM. These are not gotcha questions.
    Ms. MCMAHON. Yeah, I do not know. You know, they are banks, 
so they are under the regulatory environment as all banks would 
be. But in terms of the totality of that I could not speak to 
that today.
    Mr. BLUM. And I believe my following statement is true, but 
you can confirm this and it is a feather in the cap of the SBA, 
by the way, I believe that the losses that are incurred on the 
loans are more than covered by the fees charged on all the 
loans.
    Ms. MCMAHON. They are.
    Mr. BLUM. So we are actually running a profit. Imagine 
that. It has to be one of the few agencies in the Federal 
Government who run a profit.
    Ms. MCMAHON. Well, we are at zero subsidy. We are at zero 
subsidy and that is where, you know, that is where we want to 
stay.
    Mr. BLUM. Congratulations to that.
    Ms. MCMAHON. Thank you.
    Mr. BLUM. And now I only have 45 seconds back. I want to 
address the 800-pound gorilla in the room that no one has asked 
you so far, but I will. And some of my constituents want to 
know this as well, Administrator McMahon, is why did it take 
John Cena so long to propose marriage to Nikki Bella? Now, 
remember, you are under oath.
    Ms. MCMAHON. You would have to ask him.
    Mr. BLUM. Thank you. And with that I yield back my time.
    Chairman CHABOT. The gentleman yields back. And the 
chairman has no idea, so I am not going to get into that.
    The gentleman from Florida, Mr. Lawson, the ranking member 
of the Subcommittee on Health and Technology, is recognized for 
5 minutes.
    Mr. LAWSON. Thank you, Mr. Chairman and Madam 
Administrator.
    Last week, I introduced a bill that provided support for 
women business centers. The bill clarified the mission of the 
Office of Women Business Ownership is to assist women 
entrepreneurs to start, grow, and compete in a global market. 
Our bill also raises the cap that organizations may receive to 
start and operate women business centers to $185,000 with an 
additional $65,000 available. In your testimony, you mentioned 
creative startup for women and entrepreneurship. What are your 
goals for women business centers and how can my office and SBA 
work together in providing the maximum amount of support for 
women development centers?
    Ms. MCMAHON. Well, you have certainly gone a long way 
already with your bill and we appreciate that very much.
    Basically, I think in the women business centers, they need 
advice and counsel, and to the extent that we can provide that 
with entrepreneurs who have had success, and to the extent that 
we can work with Congress to say in my district these are some 
things that we really need to address, that would be very 
helpful to SBA and we would look forward to working with you on 
that.
    Mr. LAWSON. Okay. Thank you very much.
    And the second question centers around the concern that was 
initiated by a colleague of mine, Congressman Emanuel Cleaver, 
who expressed concern about some of the lending practices by 
financial institutions where small business owners are looking 
for loans. What are the thoughts on this, and how can SBA work 
with CFPBs to provide small firms, particularly minority-owned 
firms, with discriminatory lending practices?
    Ms. MCMAHON. One of the things as I mentioned earlier that 
SBA is doing with its lender oversight, we are really focusing 
on all of the issues relative to our lenders. And to the extent 
that we find those practices are happening, it just will not be 
tolerated.
    Mr. LAWSON. Okay. Thank you very much, Mr. Chairman. Since 
I look forward to working with the administration on small 
business centers and this legislation that we have going, I 
think it is significant and going to make a very big difference 
in terms of where we stand with women in the small business 
market that yields so many jobs in this country. I yield back.
    Chairman CHABOT. Okay, thank you very much. The gentleman 
yields back.
    Ms. MCMAHON. May I have a comment?
    Chairman CHABOT. Absolutely, yes.
    Ms. MCMAHON. Actually, a lot of what I found when I started 
the company, Women's Leadership LIVE, I wanted to make sure 
that access to capital, that lenders were not being 
discriminatory against women. And so, you know, I have had some 
really good conversations, some over dinner, some directly in 
offices, to just say, come on, what is up with that? I mean, 
you know, what are you doing relative to that? What is your 
thought process? How can we, if you have preconceived notions, 
how can we help dispel those? Or if we need to come back to 
you--we, I am talking about Women's Leadership LIVE--if we need 
to come back to you with more concrete information, what is 
that that you need to see? What is that we are not providing 
that you are getting more from our male counterparts when they 
come in for businesses? What is making that sort of 
discrimination?
    And so I think that is part of what we need to continue to 
do. It is reaching out to the lenders and it is asking them why 
are you more comfortable, or at least apparently more 
comfortable, making these loans? What is it that we need to do 
to encourage you not to have blinders on, if you do?
    Chairman CHABOT. Thank you very much, Madam Administrator.
    Before I wrap up I would like to yield to the Ranking 
Member, who would like to make a comment.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman, and thank you, 
Madam Administrator.
    I would like to take this opportunity to encourage you to 
sit down and use the leverage of your agency in talking to 
lenders and trying to incentivize them to make smaller loans to 
women, minorities, because that is the area where we are seeing 
a vacuum and we need to address that.
    Ms. MCMAHON. Thank you. Above and beyond or enhancing the 
microloan area, as well as the community advantage area, are 
you speaking relative to those?
    Ms. VELAZQUEZ. In 7(a). The 7(a).
    Ms. MCMAHON. The 7(a), okay.
    Ms. VELAZQUEZ. The 7(a) program is there to provide lending 
to those who might have problems getting traditional loans in 
the private sector, but when you look at the portfolio and just 
see big loans made, not the $200,000 or $150,000 that are so 
needed for those who are starting their businesses and for 
women and minorities, then we have a problem.
    Ms. MCMAHON. Thank you. And we will work with you to help 
address those issues as well.
    Chairman CHABOT. Thank you very much. And the chair would 
just note a couple things. One thing, as you can see, the 
Committee takes its oversight roles very seriously and we 
really do work in a bipartisan manner in this Committee. We 
even compliment each other once in a while, and so there is an 
air of good feeling once you walk in that door back there. But 
the agency that you have been in charge of for all of 6 weeks 
now does have some longstanding challenges that certainly need 
to be addressed, and I think you are aware of that to ensure 
that the agency works as efficiently and effectively as 
possible for small businesses all across the country, and we 
hope to continue to work with you very closely to resolve these 
issues and look forward to your future appearances before this 
Committee. And hopefully, they will all be as pleasant as this. 
Right, Ranking Member?
    Ms. VELAZQUEZ. Oh, yes.
    Chairman CHABOT. Oh, yes, she said.
    I would request, we noted that the default rate in 7(a) is 
below 1 percent, we think. There are a number of loan programs 
that the SBA has from 7(a) to 8(a) to microloans, et cetera. If 
you could have your folks prepare the latest figures on those 
just so we have them readily available and can keep an eye on 
them and making sure that they are within reason, or if they 
are not that we work on that.
    And I would also invite, if there are members who have 
additional questions that they would like to submit in writing, 
we would be happy to get those to you. If you could have your 
folks or if you could respond to them.
    And I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record. Without objection, so ordered.
    And if there is no further business to come before this 
Committee, we are adjourned. Thank you very much.
    Ms. MCMAHON. Thank you very much.
    Chairman CHABOT. Thank you.
    [Whereupon, at 12:40 p.m., the Committee was adjourned.]
                            A P P E N D I X


   Taking Care of Small Businesses: Working Together for a Better SBA


                       Testimony of Linda McMahon


                     House Small Business Committee


                             April 5, 2017


    Thank you, Chairman Chabot, Ranking Member Velazquez, and 
members of the Committee for inviting me to speak with you 
today. I'm so honored to be serving as Administrator of the 
U.S. Small Business Administration. I'd also like to express my 
gratitude to President Trump for the opportunity to join his 
Administration and for his support of small businesses.

    Today marks 50 days since I was sworn in as Administrator 
of SBA. I am continually impressed by the tremendous work being 
done by SBA's team in support of our nation's 28 million small 
businesses. My goal as Administrator is to revitalize the 
agency and raise its profile... and in turn, revitalize a 
spirit of entrepreneurship in America. My hope is that as more 
people learn about the services SBA provides, they will have 
the confidence, skills and resources they need to start or grow 
their own businesses, to invest in their communities, to create 
jobs, and to grow our economy.

    I feel a tremendous commitment to each of SBA's 
stakeholders--our small business owners; our team at SBA; 
President Trump, who entrusted me with this position; and the 
taxpayers who expect us to use their dollars effectively and 
efficiently.

    When I first met with President-Elect Trump back in 
November about taking the top job at SBA, he communicated one 
clear, specific request to me: ``Do a good job.'' He said it 
with such sincerity, I knew he meant it and was expecting me to 
deliver. I responded that I would, adding, ``If at any time my 
job isn't good enough, I trust you will tell me.'' And during 
my first town hall meeting with SBA's employees last month, I 
asked every one of them to join me in that commitment: do a 
good job and expect to be held accountable.

    I have spent a lot of time getting to know our team, and 
letting our team get to know me. I want them to feel engaged 
and empowered and know their expertise is valued. Since our 
town hall meeting, the conversation has continued, whether in 
formal settings or chats on the elevator or on social media. In 
fact, our social media team tells me the Agency's official 
Twitter feed has added more than 100,000 followers since I came 
on board. Last week's Twitter chat called ``Business Success 
Her Way,'' promoting women entrepreneurship, was a trending 
topic nationwide. I am thrilled there is a buzz around SBA as 
it draws attention to the services the Agency offers--services 
that will ultimately help people start, scale and succeed in 
business.

    Our small businesses are our nation's innovators and job 
creators, and I am committed to serving as their advocate. Last 
week I had the privilege of joining Vice President Pence 
visiting small business owners in West Virginia. Our host, Ron 
Foster, grew his construction supply company with the help of a 
504 loan from SBA. I relate to entrepreneurs like Ron because I 
am an entrepreneur myself. I have shared the experiences of our 
country's small business owners.

    My husband and I built our business from scratch. We 
started out sharing a desk. Over decades of hard work and 
strategic growth, we built it into a publicly traded global 
enterprise with more than 800 employees. This past weekend the 
business we created had a global audience of millions as it 
broadcast the 33rd edition of WrestleMania. I am proud of our 
success--I know every bit of the hard work it took to create 
that success. I remember the early days when every month I had 
to decide whether I should continue to lease a typewriter or if 
I could finally afford to buy it. Yes, that $12 a month really 
made a difference in our budget.

    Like all small business owners, I know what it's like to 
take a risk on an idea, manage cash flow, navigate regulations 
and tax laws, and create jobs. Since stepping down as CEO of 
WWE in 2009, I have worked to help more people have the 
opportunity to pursue those goals.

    As a candidate for the U.S. Senate in 2010 and 2012, I met 
with more than 500 small business owners--touring their shops, 
restaurants, offices and factories and sharing ideas during 
roundtable discussions. Job growth was a pillar of my campaign, 
and because small businesses are responsible for half of all 
private-sector jobs and the majority of new jobs, they were my 
focus.

    And for the past two years, I promoted women in 
entrepreneurship as co-founder and CEO of a startup called 
Women's Leadership LIVE. I wanted to share my vast experience 
with others who are launching startups or looking to scale 
their businesses. Through live events and webinars, we educated 
entrepreneurs about things like applying for a loan and 
developing a business plan. We also worked to build their 
confidence. I always say that even entrepreneurs with the best 
ideas sometimes need a little wind beneath their wings. We 
shared our stories of successes and failures, our networks of 
contacts and resources, and our strategies for addressing 
challenges. And now through SBA, I am committed to offering 
small business owners the capital, the counseling and the 
confidence that will help propel them forward.

    Small businesses have had some tough blows in the past 
decade. I know what it's like to take a hit, and I have learned 
it's not how you fall, but how you get up that truly matters. 
Early in my career, when we were very young, my husband and I 
declared bankruptcy. We invested in a company we didn't 
understand and trusted people we shouldn't have. When that 
company went under, we were left holding the bag. We worked 
really hard to pay off those debts until we realized we just 
couldn't. Bankruptcy was a really hard decision and a tough 
time in our lives. We lost our home. My car was repossessed in 
the driveway. We had a young son and a baby on the way. We had 
no choice but to work hard and start building again so we would 
support our family. When our daughter Stephanie was born--a 
perfect little baby so full of promise and potential--I took it 
as a omen that things were going to be okay. We owed it to her 
and to our son that we would make it okay. And fortunately, we 
did.

    As I have visited small businesses all over the country, I 
have seen that same resiliency over and over again. 
Entrepreneurs are fighters. They work hard, and when they get 
knocked down by a recession or a natural disaster or simply a 
change in consumer demand, they turn to their creativity to 
make it better. But sometimes they need a helping hand.

    Now that I am the SBA Administrator, I am committed to 
ensuring that our agency is as strong as it can be to lift up 
as many entrepreneurs as it can. My commitment extends to 
making sure that all services we offer to our customers are 
delivered effectively and efficiently and, most importantly, 
that SBA and our partners are offering what small businesses 
actually need to grow, innovate and create jobs. With small 
business as the driver of our economy I believe our country 
will remain strong, too.

    Thank you for the opportunity to speak with you today. I am 
happy to take your questions.
                    Questions for the Record

                  Committee on Small Business

Hearing: ``Taking Care of Small Business: Working Together for 
                         a Better SBA''

                         April 5, 2017

    Chairman Steve Chabot

          1. SBA has nearly 150 standard operating procedures. 
        Only a small subset are available on the Agency's 
        website. According to the Freedom of Information Act, 
        SBA must make its standard operating procedures and 
        manuals available to the public. Do you plan to make 
        all these documents available on SBA's website?

          2. A significant portion of SBA's budget is devoted 
        to providing outreach and technical assistance to small 
        businesses through its successful partnerships with 
        SBDCs. WBCs and SCORE. Unfortunately, SBA has created a 
        number of its own untested initiatives that duplicate 
        the training and assistance that these proven 
        organizations or other federal agencies provide. Under 
        your leadership, will the SBA re-focus itself on proven 
        programs rather than untested SBA initiatives?

          3. We continue to see a lack of resources serving and 
        less populated areas, while city centers have a 
        plethora of options for startups and small businesses. 
        What will you do to ensure the entrepreneur in a less 
        populated area has the same SBA resources available to 
        him or her?

          4. With large prime contracts, the large prime 
        contractor is required to create a subcontracting plan, 
        which maximizes small business utilization as 
        subcontractors. While large primes must act in ``good 
        faith,'' SBA has yet to define ``good faith'' 
        compliance. This failure has weakened oversight, 
        letting large prime contractors off the hook. What 
        action will SBA take to strengthen compliance with 
        subcontracting plans to maximize small business 
        utilization?

          5. Executive Order 13771 issued by President Trump on 
        January 30, 2017 requires federal agencies to take 
        significant steps to reducing regulatory burdens by 
        identifying 2 regulations for elimination for every 1 
        new regulation they would like to promulgate.

                  a. What steps has SBA taken to identify rules 
                and other requirements that could be repealed 
                or streamlined?

                  b. Will SBA issue a Federal Register notice 
                to publicly solicit input from small businesses 
                on regulations, guidance and other reporting 
                and recordkeeping requirements that should be 
                replaced or streamlined?

          6. Executive Order 13777, which President Trump 
        issued on February 24th, requires agency heads to 
        designate a Regulatory Reform Officer within 60 days 
        and establish a Regulatory Reform Task Force.

                  a. Have you designated a Regulatory Reform 
                Officer, and if so, who is that person?

                  b. Have you established a Regulatory Reform 
                Task Officer, and if so, who is serving on it?

          7. SBA is required under the Small Business Act to 
        appoint small business owners, operators, or officers 
        to the Regional Regulatory Fairness Boards for terms of 
        three years or less after receiving recommendations 
        from the chair and ranking members of the Committees on 
        Small Business in the House and Senate. In the past, 
        SBA has not adhered to these requirements. What will 
        you do to ensure that the agency complies with these 
        requirements?

          8. What is the agency doing to improve the user-
        friendliness of its website to ensure that small 
        businesses can find the information they need?

    Rep. Roger Marshall

          1. Administrator McMahon, on March 27, 2017, 
        President Trump announced the new Office of American 
        Innovation initiative at the White House aimed at 
        reducing government bureaucracy and streamlining 
        federal agencies, in partnership with many high-profile 
        CEOs. There is little mention of the inclusion of small 
        businesses in this project, even though entrepreneurs 
        are constantly developing new, innovative ways to grow 
        their businesses. Are there ways we can encourage the 
        involvement of small businesses in this initiative?

    Rep. Don Bacon

          1. Congress, and this Committee in particular, has 
        been very supportive of the Office of Advocacy's work 
        to reduce regulatory burdens on small businesses. As 
        you know, the Office of Advocacy is housed within, but 
        independent from, the SBA. Once a confirmed Chief 
        Counsel for Advocacy is leading the office, how do you 
        plan to work with him or her to improve the regulatory 
        environment for small businesses?
                    Question for the Record

                  Committee on Small Business

   Taking Care of Business: Working Together for a Better SBA

                         April 5, 2017

          Responses by SBA Administrator Linda McMahon

    1. Executive Order 13771 issued by President Trump on 
January 30, 2017 requires federal agencies to take significant 
steps to reduce regulatory burdens by identifying 2 regulations 
for elimination for every 1 new regulation they would like to 
promulgate.

          a. What steps has SBA taken to identify rules and 
        other requirements that could be repealed or 
        streamlined?

          b. Will SBA issue a Federal Register notice to 
        publicly solicit input from small businesses or 
        regulations, guidance and other reporting and 
        recordkeeping requirements that should be repealed or 
        streamlined?

    SBA Response:

    SBA has formed a regulatory reform task force and solicited 
recommendations from all of its program offices. We have also 
worked to create a process to identify and prioritize 
regulations for elimination or modification. Yes, SBA has 
drafted and will soon publish a Federal Register notice to 
solicit input from small businesses and other members of the 
public.

    2. SBA is required under the Small Business Act to appoint 
small business owners, operators, or officers to the Regional 
Regulatory Fairness Boards for terms of three years or less 
after receiving recommendations from the chair and ranking 
members of the Committees on Small Business in the House and 
Senate. In the past, SBA has not adhered to these requirements. 
What will you do to ensure that the agency complies with these 
requirements?

    SBA Response:

    SBA will consult the Chair and Ranking Members of the 
Committees on Small Business in the House and Senate as we 
search for qualified candidates to serve on the Regional 
Regulatory Fairness Boards.

    3. Administrator McMahon, on March 27, 2017, President 
Trump announced the new Office of American Innovation 
initiative at the White House aimed at reducing government 
bureaucracy and streamlining federal agencies, in partnership 
with many high-profile CEOs. There is little mention of the 
inclusion of small businesses in this project, even though 
entrepreneurs are constantly developing new, innovative ways to 
grow their businesses. Are there ways we can encourage the 
involvement of small businesses in this initiative?

    SBA Response:

    SBA is constantly working with the White House to provide 
the voice of small business on ways to reduce regulatory 
burdens for small business overall.

    4. Congress, and this Committee is particular, has been 
very supportive of the Office of Advocacy's work to reduce 
regulatory burdens on small businesses. As you know, the Office 
of Advocacy is housed within, but independent from, the SBA. 
Once a confirmed Chief Counsel for Advocacy is leading the 
office, how do you plan to work with him or her to improve the 
regulatory environment for small businesses?

    SBA Response:

    Administrator McMahon looks forward to working closely with 
the Chief Counsel for Advocacy on ways to reduce the regulatory 
burden for small businesses. Though the Office of Advocacy is 
independent from the SBA, they provide invaluable advice on the 
impact of regulations, as well as economic research concerning 
the small business environment.

    5. SBA has nearly 150 standard operating procedures. Only a 
small subset is available on the Agency's website. According to 
the Freedom of Information Act, SBA must make its standard 
operating procedures and manuals available to the public. Do 
you plan to make all these documents available on SBA's 
website?

    SBA Response:

    SBA has traditionally posted to its public facing website, 
those standard operating procedures that our customers need to 
complete applications and to review program products, services 
and requirements. The fifty-nine SOPs found on the SOP webpage 
reflect that approach. The remaining eighty-six SOPs are 
generally internal operating procedures, and those that are 
non-privileged are available to anyone who might request them. 
SBA will continue to make sure that SOPs that affect our 
customers and partners are posted for easy access and use.

    6. With large prime contracts, the large prime contractor 
is required to create a subcontracting plan, which maximizes 
small business utilization as subcontractors. While large 
primes must act in ``good faith,'' SBA has yet to define ``good 
faith'' compliance. This failure has weakened oversight, 
letting large prime contractors off the hook. What action will 
SBA take to strengthen compliance with subcontracting plans to 
maximize small business utilization?

    SBA Response:

    Section 1821 of the National Defense Authorization Act for 
Fiscal Year 2017 (NDAA), PL 114-318, approved Dec. 23, 2016, 
directed SBA to provide examples of failure to make a good 
faith effort with a subcontracting plan. The NDAA established a 
270-day deadline for SBA to act. In accordance with the NDAA, 
SBA is in the process of defining the characteristics of what 
constitutes failure to make a good faith effort. SBA will use 
this definition to evaluate Large Business Prime contractors 
that have a required small business subcontracting plan but may 
not be meeting the negotiated goals for the given contract. 
SBA's GCBD office is engaging with civilian and DOD agency 
contracting officers, industry representatives, and the Defense 
Contract Management Agency (DCMA) to develop good faith 
characteristics that reflect realistic and measurable efforts 
to comply. This will enable contracting officers to make 
necessary actions with contractors that are not attaining their 
negotiated goals and not meeting the threshold of good faith. 
SBA anticipates issuing guidance within the 270 day deadline 
established in Section 1821 of the NDAA.

    7. A significant portion of SBA's budget is devoted to 
providing outreach and technical assistance to small businesses 
through its successful partnerships with SBDCs, SBCs and SCORE. 
Unfortunately, SBA has created a number of its own untested 
initiatives that duplicate the training and assistance that 
these proven organizations or other federal agencies provide. 
Under your leadership, will the SBA re-focus itself on proven 
programs rather than untested SBA initiatives?

    SBA Response:

    As soon as I arrived, I put all initiatives on hold. I did 
this so that we could dive deeper and truly learn whether each 
initiative should continue, then review and decide the future 
of some of these initiatives. As we continue with the review 
process, it's important to state that SBA is committed to 
ensuring that taxpayers' dollars are spent wisely, and on 
programs that prove to be beneficial.

    8. We continue to see a lack of resources serving rural and 
less populated areas, while city centers have a plethora of 
options for startups and small businesses. What will you do to 
ensure the entrepreneur in a less populated area has the same 
SBA resources available to him or her?

    SBA Response:

    One of my top priorities as Administrator is to ensure that 
entrepreneurs in rural communities have the same resources 
available to them as those in metropolitan areas and other 
communities. Toward that end, I am pleased to report that just 
this month the Office of Entrepreneurial Development announced 
the availability of supplemental funding to Small Business 
Development Companies that prioritized efforts to increase 
business development in rural communities. In addition, I am 
committed to entering into more public-private partnerships to 
allow us to leverage the private sector's knowledge and 
experience via existing SBA entrepreneurial development and 
business assistance programs in order to further address rural 
development issues. SBA is also a member of the President's 
Rural Prosperity Task Force led by the Department of 
Agriculture to provide insights and support for small 
businesses in rural area across the nation.
                     Congresswoman Yvette D. Clarke


       Taking Care of Business: Working Together for a Better SBA


                  with SBA Administrator Linda McMahon


                         April 5, 2017 at 11:00


                               RHOB 2360

    ----------------------------------------------------------

                         Talking Points/Remarks


    <bullet> Thank you Mr. Chairman and Ranking Member 
Velazquez and a pleasant good morning to everyone.

    <bullet> A special good morning to Ms. McMahon, who is here 
with us for the first time today.

    <bullet> As we all know, small businesses are the backbone 
of our economy--and the Small Business Administration is 
essential to ensuring their success.

    <bullet> The SBA's professional staff of over 3,000 people 
oversees programs that allow women, veterans, historically 
disadvantaged minorities, and businesses located in 
economically distressed communities to prosper for the benefit 
of us all.

    <bullet> These programs help entrepreneurs in Central 
Brooklyn and across the country take risks that improve their 
lives and enrich our economy.

    <bullet> However, this is not to say that SBA management 
could not be improved.

    <bullet> Numerous reports have shown that participation in 
the HUBZone Program and 8(a) programs is declining.

    <bullet> Similarly, the participant pool for the 7(a) 
program is becoming less diverse and numerous programs, 
including the Disaster Assistance Program and Service-Disabled, 
Veteran-Owned Small Business Program could benefit from 
stronger oversight.

    <bullet> Addressing these challenges is hard enough under 
the best of circumstances, but would be made even harder by the 
five percent proposed cuts from this administration.

    <bullet> I look forward to hearing more about your ideas 
for addressing these challenges and to working together to make 
small business ownership attainable for all Americans.

                                 [all]
</pre></body></html>
